Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Rapid City, South Dakota Police Department
GR-80-01-006 	
February 1, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Rapid City, South Dakota, Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a UHP grant of $750,000 to hire 10 new police officers, and a MORE 95 grant to redeploy 11 existing full-time officers from administrative duties to community policing.

We reviewed the police department's compliance with eight essential grant conditions.  We found the following grant conditions acceptable: grantee's budgeting practices, source of local matching funds, reimbursement requests, planning for retention of officer positions, and community policing activities.  However, we found weaknesses in the areas identified below.  As a result, we question $132,000 and recommend that $225,000 be put to better use. 1

The police department did not hire 3 of the 10 officers funded by the UHP grant due to their policy of not hiring COPS-funded officers if  the budget will not allow them to maintain the positions at the expiration of the grant.  As a result, we recommend that the UHP grant be reduced by $225,000 to reflect the hiring practices of the police department.

	Officer redeployment has not been fully completed or documented as required by the 95 MORE grant.

	Financial Status Reports were not always submitted and contained inaccurate data.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in App


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.